Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants
 to the Providence Police DepartmentProvidence, Rhode Island


GR-70-03-007


August 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Providence, Rhode Island, Police Department (Providence).  The purpose of the grants is to enhance community policing.  Providence was awarded a total of $4,692,552 to hire 14 new police officers and redeploy the equivalent of 147.6 existing full-time police officers from administrative duties to community policing.
We found Providence to be in material non-compliance with COPS' grant requirements.  We reviewed Providence's compliance with seven essential grant conditions and found weaknesses in only two of the seven areas we tested:  reimbursement requests and officer redeployment.  However, we found little evidence of officer redeployment into community policing despite the expenditure of over $2.7 million of MORE 95 and MORE 98 grant funds.  As a result of the deficiencies identified below, we question $2,790,491 in grant funds received and recommend an additional $887,645 be put to better use.1

Providence did not hire all of the civilians authorized by the MORE 95 grant.
Providence did not expend all grant funds prior to the end date for the MORE 95 redeployment grant.
Providence received excess reimbursement for civilians hired under the MORE 95 grant and its two supplements.
Providence could not demonstrate redeployment of the minimum number of officers into community policing resulting from the MORE 95 redeployment grant.
Providence could not demonstrate redeployment of the minimum number of officers into community policing resulting from the MORE 98 equipment/technology grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.